   February 17, 2005




Financial Management
DoD Civilian Payroll Withholding
Data for FY 2004
(D-2005-036)




              Department of Defense
          Office of the Inspector General
Quality                Integrity      Accountability
  Additional Copies

  To obtain additional copies of this report, visit the Web site of the Department of
  Defense Inspector General at http://www.dodig.osd.mil/audit/reports or contact the
  Secondary Reports Distribution Unit, Audit Followup and Technical Support at
  (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact Audit Followup and
  Technical Support at (703) 604-8940 (DSN 664-8940) or fax (703) 604-8932.
  Ideas and requests can also be mailed to:

                   ODIG-AUD (ATTN: AFTS Audit Suggestions)
                     Department of Defense Inspector General
                       400 Army Navy Drive (Room 801)
                           Arlington, VA 22202-4704




Acronyms
CSRS                  Civil Service Retirement System
DCPS                  Defense Civilian Pay System
DFAS                  Defense Finance and Accounting Service
FEGLI                 Federal Employees Group Life Insurance
FERS                  Federal Employees Retirement System
OIG DoD               Office of the Inspector General of the Department of Defense
OPF                   Official Personnel File
OPM                   Office of Personnel Management
RITS                  Retirement Insurance Transfer System
TSP                   Thrift Savings Plan
                            INSPECTOR GENERAL
                           DEPARTMENT OF DEFENSE
                              400 ARMY NAVY DRIVE
                         ARLINGTON, VIRGINIA 22202-4704


                                                                      February 17,2005


MEMORANDUM FOR DEPARTMENT OF THE ARMY
               DEPARTMENT OF THE NAVY
               DEPARTMENT OF THE AIR FORCE
               DIRECTOR, DEFENSE FINANCE AND ACCOUNTING
                 SERVICE
SUBJECT: Report on DoD Civilian Payroll Withholding Data for FY 2004
         (Report No. D-2005-036)

        We are providing this report for review and comment. The Department of the
Navy, Department of the Air Force, and Defense Finance and Accounting Service
comments conformed to the requirements of DoD Directive 7650.3; therefore, additional
comments are not required. The Department of the Army did not respond to the draft
report. We considered management comments when preparing the final report.
        Government Accountability Office Government Auditing Standards require that
management provide comments on the draft report. The Department of the Army did not
provide comments; therefore, we request that the Army provide comments on this final
report by March 18,2005.
       If possible, please send management comments in electronic format (Adobe
Acrobat file only) to Aud-dfs@dodig.osd.mil. Copies of the management comments
must contain the actual signature of the authorizing official. We cannot accept the
I Signed I symbol in place of the actual signature. If you arrange to send classified
comments electronically, they must be sent over the SECRET Internet Protocol Router
Network (SIPRNET).
         We appreciate the courtesies extended to the staff. Questions should be directed
to Mr. Douglas P. Neville at (703) 428- 1061 (DSN 328- 1061) or Mr. Thomas J. Winter at
(703) 428-1270 @SN 328-1270). See Appendix C for the report distribution. We have
listed the team members inside the back cover.



                              By direction of the Deputy Inspector General for Auditing:



                                           pa&. Granetto
                                      Assistant Inspector General
                                      Defense Financial Auditing
                                                Service
cc: KPMG
                     Department of Defense Inspector General
Report No. D-2005-036                                                   February 17, 2005
   (Project No. D2004FH-0046)

                        DoD Civilian Payroll Withholding
                               Data for FY 2004

                                 Executive Summary

Who Should Read This Report and Why? This report is intended for use of the
Inspector General and the Chief Financial Officer of the Office of Personnel
Management and should not be used by those who have not agreed to the procedures and
taken responsibility for the sufficiency of the procedures for their purposes. The report
discusses the results of agreed-upon audit procedures developed for the Office of
Personnel Management.

Background. Office of Management and Budget Bulletin No. 01-02, October 16, 2000,
requires all Federal agencies to review their civilian employee retirement, health benefits,
and life insurance payroll withholdings. The Office of Personnel Management Inspector
General and Chief Financial Officer developed specific agreed-upon procedures to
review civilian employees’ withholdings and are, therefore, responsible for the adequacy
of the agreed-upon procedures. We applied the agreed-upon procedures in accordance
with the standards established by the American Institute of Certified Public Accountants.

Results. The payroll withholding amounts and total payroll amounts that the Defense
Finance and Accounting Service reported to the Office of Personnel Management did not
exactly match the supporting detail Defense Finance and Accounting Service provided
for our analysis. However, the differences are less than the thresholds prescribed in the
agreed-upon procedures. This is a repeat issue from prior Department of Defense
Inspector General audits. For details of the analysis, see the Independent Auditor’s
Report and Attachment.

Withholding Data Discrepancies. We selected a sample of 180 employees and
compared their payroll withholdings to authorizations in their official personnel files.
The comparison revealed that 14 of the 180 employee files sampled had a total of
25 discrepancies.

Conclusion. We performed the agreed-upon procedures specifically pertaining to
payroll. We were not engaged to and did not perform an audit with the objective of
expressing an opinion on the withholdings and contributions for health benefits, life
insurance, retirement, and on the employee headcount of DoD. Therefore, we are not
expressing an opinion. We performed additional procedures based on generally accepted
government auditing standards that we considered necessary in the circumstances.

We compared Forms 592, used for Payroll Certification and Summary, with the total
payroll amounts in the payroll files. We found significant discrepancies (see the attached
Independent Auditor’s Report). The discrepancies were similar to those for FY 2003 and
indicate that DFAS did not fully implement recommendations made in our FY 2003 audit
report, although DFAS concurred with the recommendations. DFAS officials explained
that the errors occurred when at least one technician downloaded the Forms 592 twice,
causing the computer to double the amounts in the reports. DFAS officials also stated
that their personnel did not reconcile the reports to payroll before reporting to DFAS
Cleveland and before signature by the Director of Civilian Payroll Operations. Defense
Finance and Accounting Service should reconcile the Forms 592 to payroll prior to
certifying that the payroll is correct and proper for payment, and should download the
Forms 592 only once for the payroll-certifying officer’s signature.

In addition, the Defense Finance and Accounting Service and supporting DoD
organizations could improve management controls over the accuracy of the payroll
amounts withheld and remitted to the Office of Personnel Management. The withholding
amounts we calculated while performing the agreed-upon procedures differed from the
withholding amounts presented in Defense Finance and Accounting Service reports.We
compared Forms 2812, used for reporting the withholding and contribution for health
benefits, life insurance, and retirement. The differences for retirement, life insurance and
health were less than the reporting threshold criteria of 1 percent established in the
agreed-upon procedures for these categories.
        Management Comments and Audit Response. The Navy and Air Force
concurred with the finding and provided management comments that are responsive. The
Defense Finance and Accounting Service concurred with the recommendations and cited
guidance that is intended to preclude the erroneous payroll reporting and certification.
However, the guidance was effective before FY 2004, most recently updated in March
2003. Compliance with this guidance would result in payroll amounts being reconciled
and properly certified, and data for Form 592 being downloaded only once. The Defense
Finance and Accounting Service stated that computer software incompatibility may have
created the appearance of inaccurate data when the data had been reported correctly. We
will examine this issue in a future audit. The Department of the Army did not provide
comments on the draft of this report; therefore, we request that the Army provide
comments on this final report by March 18, 2005. We included the full text of the Navy,
Air Force, and DFAS comments in the Management Comments section of this report.




                                             ii
Table of Contents

Executive Summary                                                   i

Independent Auditor’s Report
     Overview                                                      1
     Agreed-Upon Procedures and Associated Findings (Attachment)   6

Appendixes
     A. Scope and Methodology                                      15
          Management Control Program Review                        15
     B. Prior Coverage                                             17
     C. Report Distribution                                        18

Management Comments
     Department of the Navy                                        21
     Department of the Air Force                                   22
     Defense Finance and Accounting Service                        23
                Independent Auditor’s Report

                                Overview

We performed the procedures described in the attachment, which were agreed to
by the U.S. Office of Personnel Management (OPM) Inspector General and Chief
Financial Officer. The procedures were designed to compare records of the
employee withholdings and employer contributions reported on the Report of
Withholdings and Contributions for Health Benefits, Life Insurance, and
Retirement for the payroll periods ended October 4, 2003; December 27, 2003;
February 21, 2004; and March 6, 2004; and Semiannual Headcount Reports as of
February 21, 2004, and March 6, 2004. We performed this engagement to apply
agreed-upon procedures in accordance with the standards established by the
American Institute of Certified Public Accountants. The sufficiency of the
procedures is solely the responsibility of the Office of Personnel Management
(OPM) Inspector General and Chief Financial Officer. Consequently, we make
no representation regarding the sufficiency of the procedures described in the
attachment either for the purpose for which this report has been requested or for
any other purpose.

Comparison of Amounts Withheld and Remittance to OPM. The Defense
Finance and Accounting Service (DFAS) and supporting DoD organizations have
improved management controls over the accuracy of the payroll amounts
withheld and remitted to OPM. We performed the agreed-upon procedures to
compare the amounts withheld from employees’ pay with the amounts DFAS
reported withheld from employees’ pay. The amounts differed slightly, however,
the differences were less than the threshold criteria prescribed in the agreed-upon
procedures.

Payroll File Totals. We totaled the sampled payroll files that included about
623,000 employees within a given pay period, with a total gross payroll of about
$5.5 billion for the four pay periods we reviewed. The payroll withholding
amounts DFAS reported to OPM exceeded the totals (footings) of the DFAS
database (the amounts actually withheld) by $344,330 for an overall error rate of
0.06 percent. This is an improvement from FY 2003, when the payroll amounts
DFAS reported to OPM exceeded the footings of the DFAS database by $2.243
million, for an overall error rate of 0.65 percent. The dollar differences found this
year are less than those of last year, and are not material with respect to the DoD
financial statements. However, the differences, which range as high as 5.36
percent for life insurance withholdings on one payroll file for one pay period,
represent a material management control weakness in the preparation and
reporting of DoD payroll, if only because of the sensitivity of payroll.
Management should have addressed this material weakness in response to
recommendations in prior audit reports.The differences for retirement, health, and
life insurance were less than the reporting threshold criteria of 1 percent
established in the agreed-upon procedures. However, one of the discrepancies
(out of 16 comparisons) for life insurance exceeded the reporting threshold
criteria.

Payroll Certification and Summary. The total of the gross payroll amounts in
the payroll files was $5.46 billion. However, the totals of the amounts on the

                                      1
Causes of Discrepancies. Five inconsistencies between SF-50, “Notification of
Personnel Action,” data in the OPF and gross pay data in the pay system caused
14 of the 25 discrepancies. Inconsistencies between TSP withholding in the pay
system and the amounts indicated on the TSP-1 election forms accounted for
another seven discrepancies, all caused by missing election forms. Missing life
insurance forms caused another two discrepancies. One discrepancy was the
result of an erroneous health deduction and one discrepancy was caused by a
calculation error in an employee’s Civil Service Retirement System (CSRS)
deduction.

Personnel Documents from Databases. During our review of the 180 employee
sample files, we identified 22 OPFs with what appeared to be discrepancies. We
provided the Army, Navy, Air Force, and Defense agencies with the names, social
security numbers, and the nature of the discrepancies for each of the 22 files. The
Army, Navy, Air Force, and Defense agencies later provided us with forms
printed from personnel file databases that explained differences between data in
17 of the OPFs and data in the Defense Civilian Pay System (DCPS). We
accepted personnel documents generated from personnel file databases that
completely explained differences between data in eight of the OPFs and data in
DCPS. However, data in 14 of the 22 OPFs still had unresolved discrepancies
from data in the DCPS. Relying on the documents printed by the Military
Departments and Defense agencies for our use, we reclassified eight OPFs with
explained inconsistencies to “samples that were corrected at a later date.” Of the
eight files we reclassified as correct:

    •   one was from the Air Force,

    •   one was from the Army,

    •   two were from the Navy, and

    •   four were from Defense agencies

The Army, Navy, and Defense agencies were unable to clarify 14 out of 22 OPFs
with potential discrepancies despite additional documentation. The 14 OPFs with
discrepancies remaining are included in the total of 25 differences discussed in
the paragraph “Comparison of Payroll System Data to Official Personnel Files”
on page 2 of this report.

Calculations Required. The agreed-upon procedures require us to compare the
number of employees (headcount) in the payroll data files with the headcount in
the Supplemental Semiannual Headcount Report. Our headcounts of employees
using payroll data files differed from the Supplemental Semiannual Headcount
Reports by less than 1 percent, well within the 2-percent reporting threshold
allowed for headcount comparison in the agreed-upon procedures.

Life Insurance. Our recalculation of basic life insurance from the payroll data
files supported the amounts reported to OPM for all payroll offices with more
than 30,000 employees. The overall calculated amount of $17.485 million was
$0.115 million different from the $17.6 million DFAS reported to OPM. The
difference between the amounts we calculated and the amounts DFAS reported to
OPM (0.66 percent) did not exceed the 5-percent reporting threshold for this
recalculation.


                                      3
    Health Insurance. Our recalculations of health insurance withholdings from the
    payroll data files supported the amounts DFAS reported to OPM. The amounts
    we recalculated from the payroll data files varied from the amounts DFAS
    reported to OPM by percentages between 0.31and 0.85 percent in total, including
    employee withholding and agency contributions for each payroll file. This was
    much lower than the agreed-upon procedures reporting threshold of 5 percent for
    health insurance variances.

    Comparison of Amounts Transferred. We compared DFAS records with OPM
    documentation for the total dollar amounts transferred for the payroll periods
    sampled. We found that all the amounts reported by the DCPS equaled the
    amounts reported by the OPM Retirement and Insurance Transfer System (RITS).
    All of the amounts reported by the DCPS for FY 2003 also equaled the amounts
    reported by the OPM Retirement and RITS. DFAS maintains a CD-ROM
    snapshot every month of what they report to OPM, based on prior audit
    recommendations that we made.

    We performed the agreed-upon procedures specifically pertaining to payroll. We
    were not engaged to, and did not, perform an audit with the objective of
    expressing an opinion on the withholdings and contributions for health benefits,
    life insurance, retirement, and on the employee headcount of DoD. Therefore, we
    are not expressing an opinion. However, we performed additional procedures
    based on generally accepted government auditing standards that we determined
    necessary to evaluate the integrity of the data.

    This report is intended solely for use by the Office of Personnel Management
    (OPM) Inspector General and Chief Financial Officer. This report is prepared in
    the format directed by Office of Management and Budget Bulletin No. 01-02,
    October 16, 2000, to address the results of the agreed-upon procedures.
    Accordingly, this report should not be used by those who have not agreed to the
    procedures and have not taken responsibility for the sufficiency of the procedures
    for their purposes. In FY 2002, OMB guidance added an additional requirement
    that we obtain management comments on this report. The payroll files we
    analyzed are identified as 100 (Denver), 500 (Pensacola), 600 (Charleston), and
    800 (Denver). Appendix A discusses our scope and methodology for
    accomplishing the agreed-upon procedures.


Management Comments on the Finding and Audit Response
    Department of the Navy Comments. The Assistant Secretary of the Navy
    (Manpower and Reserve Affairs) concurred and stated that its Human Resources
    Service Centers and DFAS continue to work together to improve the quality and
    accuracy of payroll data.

    Department of the Air Force Comments. The Air Force Assistant Deputy
    Chief of Staff, Personnel concurred and commented that the Air Force does not
    use Employee Express; therefore, the discussion of Employee Express does not
    apply to the Air Force. Additionally, he stated that it had implemented
    management control recommendations from previous audit reports, as evidenced
    by the absence of discrepancies in the Air Force portion of the audit sample.



                                         4
than 0.01 percent, and for health benefits resulted in no difference, and were
nearly equal to amounts related to the amounts shown on the RITS submission for
the corresponding period. The payroll data file totals for life insurance were also
nearly equal to the related amounts shown on the RITS submission for the
corresponding period (0.49 percent difference). The total of differences,
percentage of differences, and high/low percentage of differences of individual
payroll data files are shown in Table 1.

           Table 1. Differences Between Payroll Data Files and
                         RITS Data Submissions


   Type of             Reported to         Total of   Percent           High/Low
  Withholding
  U              U    OPM in RITS
                      U              U   Differences Difference
                                         U          U   U           U    Percent
                                                                          U      U




  CSRS                     125,188,597        106,915        0.09        0.13/0.07
  FERS                      24,997,869              4       <0.01       <0.01/0.00
  Health                  154,025,982            -726        0.00        0.00/0.00
  Life                    $ 48,300,658       $238,147        0.49        5.36/0.00


DFAS provided us with an electronic extract from its database. The differences
in FY 2004 are less than those for FY 2003, and are not material with respect to
the DoD financial statements. However, the differences represent a significant
management control weakness, considering the sensitivity of payroll. One
individual comparison for payroll files, by pay period, for life insurance was
higher than the reporting threshold, at 5.36 percent.

Procedure. 2.a. Randomly select a total of 25 individuals who were on the
payroll system for all 3 of the RITS submissions selected and meet all the
following criteria:

      •   covered by the CSRS or the FERS;

      •   enrolled in the Federal Employees Health Benefits Program;

      •   covered by Basic Life Insurance;

      •   covered by at least one Federal Employees Group Life Insurance (FEGLI)
          optional coverage (Option A, B, or C).

Auditor Action. We randomly selected 25 individuals from each of 4 payroll
data files in DoD with more than 30,000 employees who were enrolled in Federal
retirement, health benefits, and life insurance programs.

Procedure. 2.b. Obtain the following documents, either in electronic or hard
copy format, from the OPF for each individual selected in step 2.a. Hard copies
can be originals or certified copies.

      •   all Notifications of Personnel Actions (SF-50) covering the pay periods in
          the RITS submissions chosen;




                                         7
   •   the Health Benefit Registration Form (SF-2809) covering the pay periods
       in the RITS submissions chosen (note: a new SF-2809 is needed only if an
       employee is changing health benefit plans; therefore, the form could be
       many years old); and

   •   the Life Insurance Election Form (SF-2817) covering the pay periods in
       the RITS submission chosen (note: a new SF-2817 is needed only if an
       employee is changing life insurance coverage; therefore, the form could be
       many years old).

Auditor Action. We obtained Notifications of Personnel Actions (SF-50), Health
Benefit Registration Forms (SF-2809), and Life Insurance Election Forms
(SF-2817) covering the pay periods in the RITS submission chosen.

Procedure. 2.c. Via the agency personnel office, request a report from
Employee Express for any health benefit transactions in that system for the
individuals selected in step 2.a. Compare the date of transaction with the date on
the certified copy of the SF-2809 requested in step 2.b. Confirm that the health
benefit information to be used in step 2.g. covers the pay periods in the RITS
submissions chosen.

Auditor Action. We requested copies from the agency personnel office of any
automated health benefits elections (SF-2809) that could explain differences
between OPFs and DCPS. The Army provided copies of personnel documents
from the Army Benefits Center, and we directly accessed the Personnel
Automated Records Information System for Air Force personnel documents.

Procedure. 2.d. Compare the base salary used for payroll purposes and upon
which withholdings and contributions generally are based with the base salary
reflected on the employee’s SF-50. Report any differences.

Auditor Action. We compared the base salary used for payroll purposes with the
base salary reflected on the employees’ SF-50s. Out of 180 files we sampled, five
employees’ SF-50s did not support the base salaries used for payroll purposes.

Procedure. 2.e. For Retirement, compare the plan code on the employees’
SF-50 to the plan codes used in the payroll system. Report any differences.

Auditor Action. We compared the plan codes on the employees’ SF-50s to the
plan codes used in the payroll system. We did not note any differences between
the retirement plan codes on the employees’ SF-50s and the retirement plan codes
used in the payroll system.

Procedure. 2.f. Calculate the retirement amount to be withheld and contributed
for the plan code from the employees’ SF-50s, based upon the official
withholding and contribution rates required by law. Compare the actual amounts
withheld and contributed. Report any differences.

Auditor Action. We calculated the retirement amount to be withheld and
contributed for the plan codes from the employees’ SF-50s, based on the official
withholding and contribution rates required. We compared the retirement
amounts we calculated to actual amounts withheld and contributed for Civil
Service Retirement System (CSRS) participants and Federal Employee


                                     8
Retirement System (FERS) participants. We encountered discrepancies in two
CSRS retirement amounts withheld. The discrepancies were the result of one
error in the calculation of gross pay and one error in the calculation of retirement
withholding. We also found a total of four FERS retirement withholding errors.
All four errors were the result of errors in the calculation of gross pay.

Procedure. 2.g. For Health Benefits, compare the employee withholdings and
agency contributions with the official subscription rates issued by OPM for the
plan and option elected by the employees, as documented by Health Benefits
Registration Forms (SF-2809) in the employees’ OPFs or Employee Express.
Report any differences.

Auditor Action. We obtained the official subscription rates for Health Benefits
issued by OPM for all plans and options available to Federal employees. We
compared the employee withholdings and agency contributions with the official
subscription rates issued by OPM for the plans and options elected by the
employees, as documented by Health Benefits Registration Forms (SF-2809) in
the employees’ OPFs. We found one health withholding error, which was the
result of an improper payroll deduction for the given health plan.

Procedure. 2.h. For life insurance, confirm that Basic Life Insurance was
elected by the employee, as documented by a Life Insurance Election
Form (SF-2817), in his/her OPF. Report any differences.

Auditor Action. We reviewed evidence for Life Insurance election by reviewing
Life Insurance Election Forms (SF-2817). In all cases basic life insurance
elections were properly documented.

Procedure. 2.i. Calculate the withholding and contribution amounts for basic
life insurance using the following:

   •   For employee withholdings: Round the employee’s annual base salary to
       the nearest thousand dollars and add $2,000. Divide this total by 1,000
       and multiply by $0.155 (for Agency Payroll Offices with biweekly pay
       periods) or $0.3358 (for Agency Payroll Offices with monthly pay
       periods).

   •   For agency contributions: Divide the employee withholdings calculated
       above by two.

Auditor Action. We calculated the withholding and contribution amounts for
basic life insurance by rounding the employee’s annual base salary to the nearest
thousand dollars and adding $2,000. For Federal Wage System employees we
added environmental differential to the base salary in determining wages eligible
for life insurance. We identified no discrepancies during our review of basic life
insurance withholdings.

Procedure. 2.j. Also, for Life Insurance, compare optional coverage elected as
documented by an SF-2817 in the employee’s OPF with optional coverage
documented in the payroll system. Report any differences.

Auditor Action. We obtained SF-2817 documents directly from employees’
OPFs and electronic personnel data files. We obtained life insurance optional


                                      9
coverage data from DCPS. We compared optional life insurance coverage elected
as documented on the SF-2817s with optional life insurance coverage as recorded
in the DCPS. We identified one instance where DCPS had optional life insurance
coverage but the employee’s OPF supported a basic-only election. We also found
one instance where DCPS had not recorded optional life insurance coverage for
an employee who elected optional coverage. These differences led to monetary
errors of $8.82 and $16.30, respectively.

Procedure. 2.k. Calculate the withholding amounts for optional life insurance
using the following:

   •   For Option A: Determine the employees’ age group using the age groups
       provided for Option A in the FEGLI Program Booklet. The withholding
       amount is the rate listed in the FEGLI Program Booklet for that age group.
       Compare to amount withheld. Report any differences.

   •   For Option B: Inspect the SF-2817 to determine the number of multiples
       chosen for Option B. Determine the employee’s age group using the age
       groups provided for Option B in the FEGLI Program Booklet. Round the
       employee’s annual rate of basic pay up to the next 1,000, divide by 1,000,
       and multiply by the rate for the age group. Multiply this amount by the
       number of multiples chosen. Compare to amount withheld. Report any
       differences.

   •   For Option C: Inspect the SF-2817 to determine the number of multiples
       chosen for Option C. Determine the employee’s age group using the age
       groups provided for Option C in the FEGLI Program Booklet. Multiply
       the rate for the age group by the number of multiples chosen. Compare to
       the amount withheld. Report any differences.

Auditor Action. We calculated the amounts for optional life insurance. In
addition to the errors noted under 2.j., we identified one additional optional life
insurance error. The error was for $.96 and was due to a systematic gross pay
error. In total we identified three life insurance errors.

Procedure. 3. Randomly select a total of 10 employees who have no health
benefits withholdings from the payroll information corresponding to the 3 RITS
submissions selected for testing.

Request SF-2809s covering the pay periods in the RITS submissions chosen,
either in electronic or hard copy format, from the selected employees’ OPFs.
Hard copies can be originals or certified copies. Via the agency personnel office,
request a report from Employee Express for any health benefit transactions in that
system for the individuals selected. Inspect the documentation to determine that
health benefit coverage was not elected. This can be determined in the following
ways:

   •   absence of an SF-2809 in the OPF and no election of coverage made
       through Employee Express;

   •   an SF-2809 in the OPF with Section E checked (indicating cancellation of
       coverage) and no later election of coverage through Employee Express; or



                                     10
   •   cancellation of coverage through Employee Express and no later election
       of coverage with an SF-2809. Report any exceptions.

Auditor Action. We randomly selected 10 employees per payroll data file who
had no health benefit withholdings from the payroll information corresponding to
the RITS submissions selected for testing. We reviewed the OPFs and electronic
personnel databases for SF-2809s. We inspected the documentation to determine
if the employee elected health benefit coverage. We found no indication of
election of coverage either in OPFs or in electronic files for employees who had
no health benefit withholdings.

Procedure. 4. Randomly select a total of 10 employees who have no life
insurance withholdings from the payroll information corresponding to the three
RITS submissions selected for testing. Request the SF-2817s covering the pay
periods in the RITS submissions chosen, either in electronic or hard copy format,
from the selected employees’ OPFs. Hard copies can be originals or certified
copies. Inspect the SF-2817 to determine that the employee waived or canceled
Basic Life Insurance coverage. Report any exceptions.

Auditor Action. We randomly selected 10 employees per payroll data file who
had no life insurance withholdings according to the DCPS corresponding to the
three RITS submissions selected for testing. We requested, obtained, and
reviewed the SF-2817s covering the pay periods in the RITS submissions chosen.
We inspected the SF-2817s in all instances when the coverage was waived.
We did not note any discrepancies.

Procedure. 5. Recalculate the headcount reflected on the Semiannual Headcount
Report selected for testing above, as follows:

5.a. Obtain existing payroll information supporting the selected Supplemental
Semiannual Headcount Report selected for testing above, as follows:

   •   Benefit category (see Semiannual Headcount Report),

   •   Dollar amount of withholdings and contributions,

   •   Number enrolled (deductions made/no deductions),

   •   Central personnel data file code, and

   •   Aggregate base salary.

5.b. Recalculate the Headcount reflected on the Semiannual Headcount Report.
If an electronic file is not available, a suggested method of recalculating the
headcount is as follows: (1) estimate the number of employees per payroll register
page by counting the employees listed on several pages, (2) count the number of
pages in the payroll register, and (3) multiply the number of employees per page
by the number of pages, or count (using a computer audit routine) the number of
employees on the payroll data file for the period.

5.c. Compare the results of payroll information from step 5.a. with the calculated
headcount from step 5.b. to information shown on the Semiannual Headcount
Report.


                                    11
5.d. Report any differences (e.g., gross rather than net) greater than two percent
between the headcount reporting on the agency’s Semiannual Headcount Report
and payroll information from step 5.a. and the calculated headcount from step 5.b.

Auditor Action. We obtained the DFAS supplemental Semiannual Headcount
Reports (see Table 2) for the pay periods ended March 6, 2003, for Payroll
Offices 100, 500, and 600 and February 21, 2004, for Payroll Office 800.
We compared those headcount reports to the payroll data files from
DFAS-Pensacola for the same period.

                Table 2. Comparison of Employee Headcounts

                                  Headcount        Employee
    Payroll                       per Payroll      Headcount
   Data File     Report Date       Data Files        Report       Difference

   97380100         3/6/2004         161,037          161,037          0
   97380500         3/6/2004          88,956           88,957          1
   97380600         3/6/2004         150,814          150,814          0
   97380800        2/21/2004         219,805          219,807          2
    Totals                           620,612          620,615          3


The counts in the payroll data files differed from the headcount reports by
three employees, which is under the reporting threshold of 2 percent.

Procedure. 6. Calculate employer and employee contributions for retirement,
health benefits, and life insurance.

6.a. Calculate retirement withholdings and contributions for the four pay periods
selected.

6.a.i. Multiply the CSRS and FERS payroll base by the withholding and
employer contribution rates required by law.

6.a.ii. Compare the calculated totals with related amounts shown on the RITS
submissions. Report any variances (e.g., gross rather than net) between the
calculated amounts and the amounts reported on the RITS submissions greater
than 5 percent of the amounts on the RITS submission.

Auditor Action. We calculated the total CSRS and FERS retirement employee
withholdings and employer contributions for the pay periods ended
March 6, 2004, for the three payroll entities 380100, 380500, and 380600; and
February 21, 2004, for the one payroll entity 380800. Employee withholding
rates for CSRS and FERS were 7.0 percent and 0.8 percent respectively.
Employer contribution rates for CSRS and FERS were 7.0 percent and
10.7 percent respectively. The differences between the calculated total of CSRS
and FERS employee retirement withholdings and employer contributions, and the
related amounts shown on the RITS submission, are shown in Tables 3 and 4.




                                    12
 Table 3. Comparison Between CSRS and FERS Employee Withholding As
               Reported by DFAS and RITS Information

           RITS CSRS CSRS DFAS                RITS FERS FERS DFAS
  Data      Calculated  Employee Percent       Calculated  Employee    Percent
  File     Withholding Withholding Difference Withholding Withholding Difference

  100      $ 6,890,515 $ 6,898,848   -0.12%      $1,266,801   $1,266,811     0.00%
  500        4,796,738   4,802,858   -0.13%         829,155      829,163     0.00%
  600        8,668,844   8,677,515   -0.10%       1,616,617    1,616,594     0.00%
  800       10,749,298 10,765,986    -0.16%       1,748,155    1,748,106     0.00%
  Totals   $31,105,394 $31,145,206   -0.13%      $5,460,727   $5,460,674   <-0.01%



Table 4. Comparison Between CSRS and FERS Employer Contribution As
              Reported by DFAS and RITS Information

           RITS CSRS CSRS DFAS                  RITS FERS FERS DFAS
  Data      Calculated Employer       Percent    Calculated   Employer       Percent
  File     Contribution Contribution Difference Contribution Contribution Difference

  100      $ 7,267,963 $ 7,265,313       0.04% $16,943,463 $16,943,401       0.00%
  500        5,139,873   5,140,549      -0.01% 11,089,941 11,089,949         0.00%
  600        9,150,183   9,148,232       0.02% 21,622,246 21,622,111         0.00%
  800       11,445,398 11,439,896        0.05% 23,381,570 23,381,558         0.00%
  Totals   $33,003,417 $32,993,990       0.03% $73,037,221 $73,037,020       0.00%



Procedure. 6.b. Calculate employee withholdings and employer contributions
for health benefits for the three pay periods selected.

Auditor Action. We obtained the number of employees enrolled in each health
insurance plan for each payroll data file from data provided by DFAS as RITS
submissions. We obtained the official subscription rates for health benefits issued
by OPM for all plans and options available to Federal employees from the OPM
website. We extended and added totals and compared the results with the health
insurance withholdings and contribution amounts shown on the OPM Collection
and Deposit System Standard Form 2812. All of the payroll offices had variances
below the 5-percent reporting threshold for this comparison.

Procedure. 6.c. Calculate the Basic Life Insurance employee withholdings and
employer contributions for the three pay periods selected.

Auditor Action. We totaled the amount of gross pay eligible for basic life
insurance for the employees in each payroll file. We divided this sum by 80 and
multiplied by 2,087 to determine annual gross earnings of employees electing
basic life insurance coverage. We used data from DCPS to obtain a count of the
number of employees electing basic life insurance for each payroll file. We
multiplied 2,000 times the number of employees electing basic life and added the
result to gross pay eligible for basic life insurance. We multiplied the total times
15.5 cents per thousand to estimate basic life withholding, and compared the
result with the withholding amounts shown on the OPM Collection and Deposit


                                      13
System Standard Form 2812. All payroll offices’ discrepancies are below the
5-percent reporting threshold for this comparison.

To estimate agency contribution, we divided the estimated basic life withholding
by two and compared it to employer basic life contribution on the OPM
Collection and Deposit System Standard Form 2812. All payroll offices’
discrepancies are below the 5-percent reporting threshold for this comparison.

Procedure. 6.d. Calculate the Option A, Option B, and Option C Life Insurance
coverage withholdings for the three pay periods selected by using detail payroll
reports used to reconcile the RITS reports in Step 1.

Auditor Action. We obtained the number of participating employees from DFAS
for each payroll data file. We totaled the individual withholding for Option A,
Option B, and Option C for each payroll data file and each date. After
comparison we determined 15 out of the 16 comparisons to be within the
2 percent withholding threshold. Payroll office 9730800 yielded a difference of
$238,189.12, or 10 percent greater than the amount on the RITS submission for
Option B during pay period ended December 27, 2003. This difference is
significantly greater than the 2-percent withholding threshold for this comparison.




                                    14
Appendix A. Scope and Methodology
    We reviewed data and documentation supporting $2.3 billion in payroll
    withholding reported each year by DFAS to OPM for DoD civilian personnel.
    The total annual payroll for the 690,000 DoD civilian employees is about
    $38 billion. We selected for review the payroll files and supporting
    documentation for the pay periods that ended October 4, 2003; December 27,
    2003; February 21, 2004; and March 6, 2004.

    We reviewed data and documentation supporting gross pay and payroll
    withholdings that DFAS reported to OPM for the four pay periods ended
    October 4, 2003; February 21, 2003; February 21, 2004; and March 6, 2004. We
    also reviewed management controls over the reporting process. We compared the
    payroll data files with employee personnel forms for 180 randomly selected
    employees for gross pay, retirement, health insurance, and life insurance.

    We performed the agreed-upon procedures required by OMB, including
    verification of the payroll data file totals and recalculations of insurance and
    retirement withholdings. We performed additional procedures based on generally
    accepted government auditing standards that we considered necessary in the
    circumstances.

    Use of Computer-Processed Data. We did not evaluate the general and
    application controls of the DCPS that processes payroll data, although we did rely
    on data produced by that system to conduct the audit. We determined data
    reliability by totaling the data provided to us from the system and comparing the
    totals to summary documents previously prepared from the system. DFAS
    maintains CD-ROMs for support of each transfer of funds to OPM because the
    DFAS database system cannot provide the snapshot of information needed.
    DFAS is implementing a data warehouse system that should be able to provide
    the data in the future. Not evaluating the controls did not affect the results of the
    application of the agreed-upon procedures.

    Use of Technical Assistance. A computer specialist from the Information
    Technology Services Division in the Department of Defense Office of Inspector
    General provided assistance in converting the DFAS payroll history database into
    a database capable of performing queries.

    Government Accountability Office High-Risk Area. The Government
    Accountability Office has identified several high-risk areas in DoD. This report
    provides coverage of the DoD Financial Management high-risk area.


Management Control Program Review
    DoD Directive 5010.38, “Management Control (MC) Program,” August 26, 1996,
    and DoD Instruction 5010.40, “Management Control (MC) Program Procedures,”
    August 28, 1996, require DoD organizations to implement a comprehensive
    system of management controls that provides reasonable assurance that programs
    are operating as intended and to evaluate the adequacy of the controls.


                                         15
Scope of the Review of the Management Control Program. We reviewed the
adequacy of DoD personnel offices’ management controls over official personnel
files. Specifically, we reviewed DoD personnel offices’ management controls
over accuracy of personnel elections for payroll withholding, transmission of
payroll withholding data to DFAS, and retention of personnel payroll withholding
election data in the official civilian personnel files. We reviewed the annual
statements of assurance by the Military Departments and Defense agencies to
determine whether they disclosed the inconsistency between official personnel
files and DCPS payroll withholding data.

Adequacy of Management Controls. We identified a management control
weakness for DoD personnel offices as defined by DoD Instruction 5010.40.
Specifically, we identified weaknesses involving:

    •   DoD personnel offices’ management controls for accuracy of personnel
        payroll withholding elections,

    •   timely transmission of personnel payroll withholding data to DFAS, and

    •   retention of personnel payroll withholding elections in official personnel
        files.

The inadequate controls did not ensure the:

    •   proper payment and withholdings for civilian personnel,

    •   timely transmission of civilian personnel payroll withholding data, and

    •   retention of documents and data supporting payroll withholding in the
        official personnel files.

We previously reported this management control weakness in DoD IG Report
No. D-2002-070, issued March 25, 2002. Recommendations 1.a., 1.b., and 2. in
that report have been implemented and should improve DoD personnel office
payroll withholding procedures. We provided a copy of that report to the senior
officials responsible for management controls of the personnel offices of the
Military Departments and Defense agencies for their information and use.

Adequacy of Management’s Self-Evaluation. Self-evaluation by the Military
Departments and Defense agencies did not identify the weakness because
management did not identify the area as an assessable unit.




                                    16
Appendix B. Prior Coverage
   The Department of Defense Inspector General (DoD IG) and the Air Force Audit
   Agency (AFAA) have conducted multiple reviews related to civilian payroll
   information, controls over the payroll process, and payroll expenses. Unrestricted
   DoD IG reports are on the Internet at www.dodig.osd.mil/audit/reports.
   Unrestricted Air Force Audit Agency reports are on the Internet at
   www.afaa.hq.af.mil.

   DoD IG

   DoD IG Report No. D-2004-051, “DoD Payroll Withholding Data for FY 2003,”
   February 6, 2004

   DoD IG Report No. D-2003-060, “DoD Payroll Withholding Data for FY 2002,”
   March 18, 2003

   DoD IG Report No. D-2002-070, “DoD Payroll Withholding Data for FY 2000,”
   March 25, 2002

   DoD IG Report No. D-2001-109, “DoD Payroll Withholding Data for FY 2000,”
   April 27, 2001

   DoD IG Report No. D-2000-156, “DoD Payroll Withholding Data for FY 1999,”
   June 29, 2000

   Air Force Audit Agency

   AFAA Report No. F2004-0001-FB1000, “Civilian Premium Payments,”
   October, 1, 2003

   AFAA Report No. 01053014, “Civilian Pay FY 2000,” July 23, 2001

   AFAA Report No. 99054002, “Selected Civilian Pay Entitlement,” March 1, 2000




                                       17
Appendix C. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense (Comptroller)/Chief Financial Officer
  Deputy Chief Financial Officer
  Deputy Comptroller (Program/Budget)
Under Secretary of Defense for Personnel and Readiness

Department of the Army
Assistant Secretary of the Army (Financial Management and Comptroller)
Auditor General, Department of the Army

Department of the Navy
Assistant Secretary of the Navy (Manpower and Reserve Affairs)
Naval Inspector General
Auditor General, Department of the Navy

Department of the Air Force
Assistant Secretary of the Air Force (Financial Management and Comptroller)
Auditor General, Department of the Air Force

Other Defense Organizations
Director, Defense Contract Audit Agency
Director, Defense Finance and Accounting Service
Director, Defense Information Systems Agency
Director, Defense Logistics Agency
Director, Defense Commissary Agency
Director, Defense Contract Management Agency
Director, Defense Information Systems Agency
Director, Defense Security Agency
Director, National Geospatial Intelligence Agency
Director, DoD Education Activity
Director, Civilian Personnel Management Services
Director, Washington Headquarters Service
Director, Pentagon Force Protection Agency




                                          18
Non-Defense Federal Organizations
Office of Management and Budget
Office of Personnel Management

Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Efficiency and Financial Management, Committee
  on Government Reform
House Subcommittee on National Security, Emerging Threats, and International
  Relations, Committee on Government Reform
House Subcommittee on Technology, Information Policy, Intergovernmental Relations,
  and the Census, Committee on Government Reform




                                        19
Department of the Navy Comments




                    21
Department of the Air Force Comments




                     22
Defense Finance and Accounting Service
Comments




                      23
24
25
Team Members
The Department of Defense Office of Deputy Inspector General for Auditing,
Defense Financial Auditing Service prepared this report. Personnel in the
Department of Defense Office of Inspector General who contributed to the report
are listed below.

Paul J. Granetto
Douglas P. Neville
Thomas J. Winter
Joseph Powell
Jonathan Rabben
Joseph Bilock
Demetria Trahan
Daniel Carlquist
